LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

April 29, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 19-1184 :

NIKKI BRUNI; JULIE COSENTINO; CYNTHIA RINALDI; KATHLEEN
LASLOW; AND PATRICK MALLEY V. CITY OF PITTSBURGH,
PITTSBURGH CITY COUNCIL; MAYOR OF PITTSBURGH

Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Brief of Amici
Curiae Constitutional Law Professors referenced above contains 3,661 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 29th day of April 2020.

